APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1363, 2018-1732
TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Plaintiffs-Appellees,
v.
TELEFONAKTIEBOLAGET LM ERICSSON,
ERICSSON INC.,
Defendants-Appellants.
Appeals from the United States District Court for the
Central District of California in No. 8:14-cv-00341-JVSDFM, Judge James V. Selna.
ERICSSON, INC.,
TELEFONAKTIEBOLAGET LM ERICSSON,
Plaintiffs-Appellants,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED, TCT MOBILE LIMITED,
TCT MOBILE (US) INC.,
Defendants-Appellees.
2018-1380, 2018-1382

2a
Appeals from the United States District Court for the
Central District of California in No. 2:15-cv-02370-JVSDFM, Judge James V. Selna.
Decided: December 5, 2019
Before NEWMAN, CHEN, and HUGHES, Circuit Judges.
CHEN, Circuit Judge.
This appeal arises from a March 9, 2018 decision
and order issued by the United States District Court
for the Central District of California (the court) imposing “fair, reasonable and non-discriminatory”
(FRAND) rates in a binding worldwide license on Appellants (Ericsson) and Appellees (TCL) for Ericsson’s
portfolio of standard-essential patents (SEPs) incorporated into 2G, 3G, and 4G mobile communications
standards.
The court-ordered license set forth two terms relevant on appeal: (1) a prospective FRAND royalty rate
for practicing each standard, and (2) a “release payment” computed based on a closely related, retrospective FRAND rate for “TCL’s past unlicensed sales.”
To determine these rates, the court conducted a tenday bench trial, where the two parties proposed different FRAND rates based on different methodologies.
Rejecting both parties’ proposed methodologies as
flawed, the court employed its own modified version of
TCL’s proposed “top-down” approach in combination
with comparable license evidence to compute both the
prospective and retrospective FRAND rates.
The threshold issue on appeal is whether Ericsson
had a Seventh Amendment right to a jury trial on the
adjudication of the “release payment” term. This in-

3a
quiry turns on whether the relief sought by the release
payment is either legal or equitable in nature. Because
we conclude that the release payment is in substance
compensatory relief for TCL’s past patent infringing
activity, we hold that Ericsson was entitled to a jury
trial on the calculation of the release payment amount,
and that the district court deprived Ericsson of that
right by determining that legal relief in a bench trial.
For the reasons explained below, we vacate-in-part, reverse-in-part, and remand for further proceedings consistent with this opinion.
BACKGROUND
Standards promote interoperability of different devices through the use of the same protocol. Patents declared to be essential to practicing a standard are often
referred to as SEPs. This case involves a portfolio of
SEPs owned by Ericsson incorporated into 2G, 3G, and
4G standards that enable mobile devices from different
manufacturers and different networks to communicate
with each other using the same communication protocol.
A. ETSI and the FRAND Obligation
Ericsson is a member of the European Telecommunications Standards Institute (ETSI), which is the international standard-setting organization responsible
for developing 2G, 3G, and 4G standards. For a patent
to become essential to an ETSI standard, ETSI members first submit declarations identifying which of their
patents or applications may become essential to the
standard. ETSI’s acceptance of a member’s patent as
an SEP forms a contract between ETSI and its members. Together, the 2G, 3G, and 4G standards incorporate the technologies claimed by thousands of SEPs,
including over one hundred owned by Ericsson.

4a
Because interoperability requires the practice of
these standards, owners of such SEPs wield significant
power over implementers during licensing negotiations.
To offset this power imbalance and promote interoperability, the contract imposes an obligation to license,
referred to here as the “FRAND obligation,” on ETSI
members. J.A. 35. As defined by § 6.1 of the ETSI Intellectual Property Rights Policy, this obligation requires members to be “prepared to grant irrevocable
licenses” to implement their SEPs on FRAND terms
and conditions to implementers. J.A. 36. Because this
obligation is intended to benefit implementers of ETSI
standards, the implementers may assert their rights
created by the FRAND obligation as third-party beneficiaries. Id.
TCL manufactures mobile devices that implement
these ETSI standards so that they may interoperate in
the mobile communications environment. As a member
of ETSI, Ericsson is bound by its contractual FRAND
obligation to ETSI to be prepared to offer TCL
FRAND-complaint terms to license its SEP portfolio.
B. Licensing Negotiations
The parties have been negotiating licensing terms
for over a decade. In 2007, TCL and Ericsson entered
into 2G licenses with seven-year terms. TCL did not
sell a meaningful volume of 3G phones until 2011, when
the two parties began to negotiate a 3G license in earnest. In 2012, while the parties were negotiating, Ericsson initiated a series of foreign litigations against
TCL for alleged infringement of Ericsson’s SEPs in six
different jurisdictions (France, United Kingdom, Brazil, Russia, Argentina, and Germany). In 2013, TCL
began selling 4G phones, and the parties began negotiating a license covering Ericsson’s 4G SEPs. That

5a
year, Ericsson offered 4G rates to TCL for the first
time. But TCL did not consider any of Ericsson’s offers
or counteroffers to be on FRAND terms. In a 2014
meeting, Ericsson made a license offer that TCL stated
“look[ed] promising.” J.A. 31.
Before the parties reached agreement, TCL filed a
declaratory judgment action against Ericsson in the
Central District of California. This was filed right before TCL’s 2G licenses with Ericsson were set to expire. J.A. 32. When negotiations finally failed, the parties agreed to engage in a binding court adjudication of
terms for a worldwide portfolio license. J.A. 32. The
adjudication of these terms is the subject of this appeal.
PROCEDURAL HISTORY
The case below is a consolidation of two district
court actions. The first action was initiated by TCL in
March 2014, when it filed suit against Ericsson in the
Central District of California (the California Action).
The second action followed in June 2014, when Ericsson
filed suit against TCL in the Eastern District of Texas
(the Texas Action).
In the California Action, TCL sought declaratory
judgment that Ericsson had failed to offer a FRAND
rate to TCL. J.A. 469. In its prayer for relief, TCL requested that the court “[d]etermine the FRAND rates
that TCL is entitled to,” “[d]ecree that Ericsson has not
offered [FRAND] royalties to TCL,” and “[d]ecree that
TCL is entitled to license from Ericsson any and all
[SEPs] under [FRAND] terms and conditions.” J.A.
683. TCL also sought damages for infringement of its
own patents, as well as various state law claims based
on Ericsson’s contractual FRAND obligation with
ETSI (e.g., breach of contract, promissory estoppel, vi-

6a
olation of California Unfair Competition Law).
641.

J.A.

In the Texas Action, Ericsson sought damages for
infringement of two individually-asserted SEPs, U.S.
Patent No. 6,301,556 and U.S. Patent No. 6,473,506, for
which TCL filed counterclaims of invalidity and noninfringement (collectively, Ericsson’s patent infringement claims and TCL’s related counterclaims of invalidity and non-infringement). Ericsson further requested
that the court declare “that [it] complied with its
FRAND commitments … or, alternatively, adjudge
and declare what steps would be required for Ericsson
to achieve such compliance.” J.A. 60828.
The two Actions were consolidated in June 2015
when the Texas Action was transferred to the Central
District of California. The same day, the court granted
TCL’s motion to enjoin Ericsson “from further prosecuting any actions alleging infringement of its 2G, 3G,
and 4G patents until the FRAND issues are resolved”
in the Central District of California. J.A. 32–33 (referring to J.A. 4687).
A. Ericsson’s Proposed License Offers to TCL
The court ordered the parties to provide contentions defining the contents of a FRAND license. J.A.
131713. In response, Ericsson proposed two alternative
license offers, “Option A” and “Option B,” in its contentions. J.A. 2718–78; J.A. 4795–857. Eventually, the
court ruled that the FRAND determination would be
made in reference to Ericsson’s Option A and B offers.
J.A. 38768–70.
Option A proposed a lump-sum payment with percentage running royalties. Under Option A for mobile
phones, TCL would make an annual payment of $30

7a
million for its first $3 billion in sales, with percentage
running royalty rates for additional sales. These running royalty rates were 0.8% of the net selling price for
phones with 2G GSM/GPRS, 1.1% for phones with 2G
EDGE, 1.5% for 3G devices, and 2.0% for 4G devices.
Option B proposed only running royalties with caps
and floors. Under Option B for mobile phones, TCL
would pay percentage running rates as follows: 0.8% of
the net selling price of 2G/GSM/GPRS, 1.0% for 2G
EDGE, 1.2% for 3G, and 1.5% for 4G with a $2.00 floor
and a $4.50 cap.
In both options, Ericsson proposed a “release payment” for “TCL’s past unlicensed sales.” J.A. 33. Both
parties agreed that the release payment would be part
of the court-ordered FRAND license. J.A. 131911.
B. Discussion of Jury Trial Issues
In January 2015, the parties filed a joint report
stipulating to various agreements and understandings
about which issues should be decided by a jury. At the
time, both legal and equitable claims were still active.
TCL’s damages claim for breach of contract was legal.
TCL’s claim for the court to set a prospective FRAND
rate for the license was equitable. These two claims
shared a common issue: whether Ericsson’s licensing
offer complied with its FRAND obligations. J.A. 1893–
94. Under Dairy Queen, Inc. v. Wood, 369 U.S. 469,
472–73 (1962), legal claims must be tried first to a jury
where they share common issues with equitable claims.
Thus, the parties agreed to a two-step approach: (1) a
jury would decide the common issue of whether Ericsson’s offer complied with its FRAND obligation, and (2)
if the jury answered no, a bench trial would be conducted to revise terms in the offer to be compliant with
FRAND. J.A. 1892–934.

8a
By mid-August 2016, all of TCL’s claims and counterclaims seeking damages had been dismissed or were
no longer viable in view of other motions.1 However,
Ericsson’s counterclaims seeking damages for patent
infringement, which had been stayed by the court, still
remained.
While Ericsson acknowledged that the claims and
counterclaims remaining for adjudication in the upcoming trial only sought specific performance or declaratory judgment as remedies, it insisted that a jury trial
was required. According to Ericsson, the release payment term, which was “money for [TCL’s] past patent
infringement,” was “decidedly legal” and thus entitled
“Ericsson to a jury on all asserted claims.” J.A. 38827–
28. The court disagreed. In a January 2017 final pretrial conference order, the court acknowledged Ericsson’s assertions of its jury trial right but indicated that
it had nevertheless decided to proceed with a bench trial. J.A. 48694. On the day of trial, right before the first
witness was called, Ericsson renewed its objection, noting for the record that it had not “waived [its] right to a
jury trial.” J.A. 51642.
C. Bench Trial
On February 14, 2017, the court commenced a tenday bench trial. To assist the court in determining
whether Ericsson’s alternative offers were FRAND,
the parties proposed different methodologies for com1

On August 8, 2016, the court granted Ericsson’s motion for
partial summary judgment as to no damages for TCL’s state law
claims of breach of contract, promissory estoppel, and violation of
California’s Unfair Competition Law, finding that “TCL ha[d]
failed to satisfy its burden on summary judgment to come forward
with admissible evidence to create a triable issue of fact on damages.” J.A. 38805.

9a
puting FRAND rates. While the parties’ competing
methodologies sought to estimate the incremental value that Ericsson’s SEPs added to the relevant standard, they did so in different ways.
1.

TCL’s “Top-Down” Implementation

TCL proposed a “top-down” approach “which begins with an aggregate royalty for all patents encompassed in a standard” and “then determines a firm’s
portion of that aggregate.” J.A. 29. In other words,
this approach is “top-down” because it starts by determining the value of the whole royalty pie corresponding
to a given standard (e.g., 2G, 3G, 4G) and then determines Ericsson’s slice of the pie for that standard.
To determine the maximum aggregate royalty assigned to each standard, TCL relied on Ericsson’s own
public statements about what that ceiling rate should
be. Ericsson made these statements prior to ETSI’s
adoption of each standard. For example, in 2008, Ericsson indicated on its website that it believed the “reasonable maximum aggregate royalty level” for the
then-upcoming LTE standard to be “6–8% for handsets.” J.A. 48.
TCL’s top-down approach computed a different
FRAND rate for licensing Ericsson’s SEP portfolio for
each standard based on the following general equation:
FRAND royalty rate
= (maximum aggregate royalty rate)
× (Ericsson’s proportional share)
× (adjustment factors)
For each standard, Ericsson’s proportional share was
computed by dividing the number of SEPs owned by
Ericsson (numerator) by the total number of SEPs in

10a
that standard (denominator). The proportional share
was then adjusted by various factors, such as “importance and contribution of each patent family,” to account for the “relative strength” of Ericsson’s SEPs
compared to other SEPs in a particular standard.
J.A. 41–42, 64–66. According to TCL’s top-down methodology, the rates proposed in Ericsson’s Option A and
Option B were not FRAND-compliant because they
substantially exceeded the FRAND rates yielded from
the top-down approach.
2.

Ericsson’s Proposed Approach

Ericsson did not offer its own version of a top-down
approach. Rather, to show that the royalty rates it offered to TCL in Options A and B satisfied FRAND, it
presented evidence of (1) existing licenses it had negotiated with other implementers and those it had prepared for the purposes of business cases and (2) rates
produced from an alternative methodology that sought
to measure in absolute terms the value which Ericsson’s patents added to 4G products.2
3.

“Comparable” Licenses

The parties disputed how “comparable” the existing licenses actually were to those that would be offered to TCL in a hypothetical negotiation. The parties
agreed that four firms were similarly situated to TCL
(Huawei, LG, HTC, ZTE), but they disagreed on
2

Dubbed the “ex-Standard” approach by Ericsson’s experts,
this evidence was not comprehensive, because it was limited to
estimating the value of Ericsson’s SEPs incorporated into the 4G
standard only. We do not discuss this approach in detail, because
its analysis was entirely rejected by the court as “lack[ing] fundamental credibility,” J.A. 79, and Ericsson does not dispute that
rejection on appeal.

11a
whether four others (Apple, Samsung, Coolpad, Karbonn) were similarly situated to TCL. J.A. 83.
BENCH TRIAL DECISION
Following the bench trial, the court issued a
lengthy decision setting forth terms for a binding
worldwide license to Ericsson’s 2G, 3G, and 4G SEPs.
The court amended this decision in an Amended Memorandum of Findings of Fact and Conclusions of Law on
March 9, 2018 (“bench trial decision”), which is the subject of this appeal. J.A. 27–141.
Over Ericsson’s repeated assertions of its jury trial
right, the court explained in a single sentence that it
had decided to proceed with a bench trial after it “ruled
that TCL’s remaining claims were equitable.” J.A. 34–
35. The court did not address Ericsson’s argument
about the legal nature of the release payment remedy.
The court articulated a two-step framework agreed
upon by the parties for resolving the remaining issues.
At the first step, the court determined whether Ericsson’s final offers proposed prior to trial satisfied
FRAND. J.A. 28.3 If the court answered no, it would
proceed to the second step, where it would supply the
material FRAND terms. J.A. 28–29.
A. Step 1: The court concludes that Ericsson’s offers
did not satisfy FRAND.
To determine whether Ericsson’s offers were
FRAND, the court first turned to the different rates
produced by the two parties’ methodologies. The court
3

As part of this inquiry, the court first determined whether
Ericsson complied with its “FRAND obligation” by negotiating
with TCL in good faith. The court answered this in the affirmative, J.A. 29, and TCL does not dispute that finding on appeal.

12a
did not accept either party’s proposed rates because it
found their methodologies to be flawed. Instead, the
court devised its own version of the top-down method
to determine a “fair and reasonable” rate under
FRAND. It then compared Ericsson’s proposed offers
to comparable licenses to determine whether they were
“non-discriminatory’ under the third element of
FRAND. Based on these two approaches, it concluded
that “Ericsson’s offers are not fair and reasonable, and
are discriminatory.” J.A. 139.
1.

The court uses its own modified version of
TCL’s top-down approach to determine whether
Ericsson’s offers are “fair and reasonable” under FRAND.

First, while the court noted that the top-down
method was “not necessarily a substitute for a marketbased approach that considers comparable licenses,”
J.A. 41, it described the unique benefits of using a topdown approach to mitigate two main risks that arise in
the SEP licensing context.
One risk is royalty stacking. As the court explained, “[s]tacking occurs when each individual SEP
holder demands a royalty which when totaled exceeds
the value of all the SEPs in a standard.” J.A. 41. Because the top-down approach computes the FRAND
rate for a particular SEP or SEP portfolio by starting
with the maximum aggregate royalty burden, reasoned
the court, “it avoid[s] the possibility that licensees will
be forced to pay an unreasonable amount in total.” Id.
Another risk is patent owner hold-up. This occurs
when a patent-owner seeks to extract excessive value
from its SEPs after the implementer is “locked-in” to
using the standard. Regardless of the value contributed to the standard by the SEP, the implementer must

13a
practice the SEP in order to practice the whole standard. Because the top-down approach limits the overall
size of the royalty pie, the court reasoned that the topdown approach “can also prevent hold-up” because it
“prevents SEP owners from charging a premium for
the value added by standardization.” Id.
Second, while the court found “fatal flaws” with
TCL’s analysis of the relative “importance and contribution” of Ericsson’s SEP portfolio compared to that of
the other SEPs in the relevant standards, the court still
found “some value in the technical analysis, particularly
to show that Ericsson’s patent portfolio is certainly not
as strong or essential as it has claimed.” J.A. 69. Thus,
it “use[d] this finding in part to assist it in determining
the final FRAND rate.” Id. Specifically, the court substituted its own values for the importance and contribution values calculated by TCL’s experts, adopting a
“simple patent counting system which treats every patent [incorporated in the standard] as possessing identical value, and then applies the numbers that it found
reliable from the analyses provided by TCL’s experts.”
J.A. 42–43.
Though the court admitted that it had “some reservations about the top down analysis,” it determined
that there was “no basis to reconcile the results” of its
own modified version of the top-down methodology
with the substantially higher rates proposed in Option
A or Option B. J.A. 72–75. The court therefore concluded that Ericsson’s offers were not fair and reasonable. J.A. 75.
2.

The court uses comparable licenses to determine whether Ericsson’s offers are “nondiscriminatory” under FRAND.

14a
The court only used licenses of similarly situated licensees to determine whether Ericsson’s offers were
non-discriminatory. First, the court determined which
licensees were “similarly situated” to TCL such that
their licenses would serve as “comparable” points of
comparison. J.A. 82. The parties agreed that four
firms were similarly situated to TCL: Huawei, LG,
HTC, and ZTE. J.A. 83. But they disputed whether
four others (Apple, Samsung, Coolpad, Karbonn) were
also similarly situated to TCL. Ultimately, the court
resolved the dispute based on geographic scope, agreeing with TCL that global firms such as Apple and Samsung were similarly situated to TCL (which is also a
global firm) but that “local kings” such as Coolpad
(whose market is primarily in China) and Karbonn
(whose market is primarily India) were not. J.A. 84–85.
Thus, the court concluded that the following six firms
were similarly situated: Apple, Samsung, LG, HTC,
Huawei, and ZTE. J.A. 84.
Second, relying on expert evidence, the court unpacked the six “similarly situated” licenses and Ericsson’s offers to an effective per-unit royalty rate so that
they could be compared to each other on a “common basis.” J.A. 80. In determining what form this common
basis would take, the court rejected a dollar-per-unit
rate in favor of a pure “per-centage royalties without
caps or floors.” J.A. 94–95.
Finally, the court compared the unpacked effective
royalty rates from the comparable licenses to those
proposed in Ericsson’s offers and concluded that Ericsson’s offers were discriminatory because the unpacked
effective royalty rates of Option A and Option B were
“radically divergent from rates which Ericsson agreed
to accept from licensees similarly situated to TCL.”
J.A. 120. Moreover, the court added that “Ericsson’s

15a
use of floors in its rates is itself discriminatory.”
J.A. 139. “In the absence of a credible showing that Ericsson’s SEPs add a measurable incremental value,”
explained the court, “there is no basis for essentially
discriminating on the basis of the average selling price
where a floor would result in a higher effective rate for
lower price phones.” Id.
B. Step 2: The court sets prospective and retrospective FRAND rates in the license.
At the second step of the two-step framework, the
court relied on its FRAND analysis in the first step to
supply FRAND terms of the binding license. These
terms included (1) a prospective FRAND rate for
TCL’s future licensed practice of Ericsson’s SEPs and
(2) a cumulative release payment for TCL’s past unlicensed practice of Ericsson’s SEPs. This release payment was calculated based on a retrospective FRAND
rate that was closely related to the prospective
FRAND rate computed by the court.
To compute the ongoing FRAND royalty rate, the
court began by “looking at the combination of rates derived from the top down and comparable license analyses.” J.A. 120. The court ultimately set a FRAND
royalty rate that generally fell within the range of rates
produced by those two approaches where appropriate.4
J.A. 130.
The court used this first FRAND rate to compute
the second “release payment” term. Specifically, the
court computed the retrospective FRAND rate by discounting the ongoing FRAND royalty for present value
4

Because the court “could not reliably unpack 2G rates from
any comparable license,” it adopted the rate produced by the topdown approach. J.A. 129.

16a
and potential royalty stacking to arrive at a cumulative
release payment to compensate Ericsson for TCL’s patent infringement. J.A. 130–33.
Pursuant to the bench trial decision, the court issued an Amended Final Judgment and Injunction, ordering that Ericsson’s patent infringement claims5 and
TCL’s related counterclaims of invalidity and noninfringement be “dismissed without prejudice because
they are moot in light of the equitable relief granted in
the release payment.” J.A. 24. Specifically, the court
ordered Ericsson to “release TCL and all customers of
TCL who have purchased or used products herein licensed to TCL from claims for past patent infringement … .” J.A. 14.
Ericsson filed a timely appeal. Because this appeal
involves the dismissal of Ericsson’s patent infringement claims, we have jurisdiction under 28 U.S.C.
§ 1295(a)(1).
DISCUSSION
The district court made four determinations in its
bench trial decision that resolution of the issues on appeal will impact. First, it concluded that Ericsson’s
proposed terms to TCL were not FRAND. Second, the
court set a prospective FRAND royalty rate for TCL’s
future use of Ericsson’s SEPs, relying on a combination
of methodologies, including its own modified version of
TCL’s proposed top-down approach and comparable
licenses. Third, the court set a “release payment for
TCL’s past unlicensed sales” by adjusting its calculated
prospective FRAND royalty rate. J.A. 33. The two
5

These refer to the patent infringement claims that Ericsson
originally filed in the Texas Action prior to consolidation with the
California Action.

17a
rates computed in the second and third determinations
were imposed in a court-ordered license agreement by
which the parties had agreed to be bound prior to the
bench trial. Fourth, the district court ordered the dismissal of Ericsson’s patent infringement claims and
TCL’s related counterclaims of invalidity and noninfringement as moot in light of the relief granted in
the release payment, because any damages amount
from those infringement claims were already subsumed
in the release payment determination.
On appeal, Ericsson argues that all four determinations are erroneous for two main reasons: (1) they at
least in part should have been determined by a jury,
not the bench,6 and (2) they were premised on various
errors in the court’s FRAND analysis.7 Because the
6

On appeal, Ericsson presents three independent reasons
why it was deprived of its right to a jury trial under the Seventh
Amendment: (1) the declaratory judgment action tried by the
court was an inverted patent infringement suit, which entitled Ericsson to a jury trial; (2) the court resolved common issues that are
typically litigated in patent infringement suits for damages (e.g.,
determining which licenses are comparable, weighing expert credibility, and assessing various data points to rule that Ericsson’s
offers were not FRAND) prior to adjudicating the remaining equitable claims, thereby depriving Ericsson of its right to a jury trial
on the legal issues; and (3) by adjudicating the release payment
amount that was retrospective monetary compensation for past
wrongs, the court improperly determined legal relief without a
jury. Because we conclude that the third reason is in itself sufficient to overturn all of the court’s rulings below, we do not address
Ericsson’s other two alleged reasons.
7

Ericsson’s appeal primarily focuses on three arguments.
First, it argues that the court erred in determining royalty rates
that were “reasonable” because it employed a “simple counting
method” that allegedly presumed each of Ericsson’s SEPs to possess equal value with all other SEPs in a standard, instead of
measuring the incremental value that each patent added to the

18a
first reason is sufficient to overturn all four determinations, we turn first to that issue in this opinion.
For reasons discussed below, we agree with Ericsson’s first point.8 Because we conclude that the release
payment is in substance compensatory relief for TCL’s
past wrongs (i.e., practicing Ericsson’s patented technologies without a license), we hold that the district
court deprived Ericsson of its constitutional right to a
jury trial on that legal relief by requiring that Ericsson
adjudicate that relief in a bench trial.
A. Ericsson’s Right to a Jury Trial
We review “the constitutional question of whether
a party is entitled to a jury trial” de novo. Tegal Corp.
v. Tokyo Electron Am., Inc., 257 F.3d 1331, 1339 (Fed.
Cir. 2001).

standard. Second, Ericsson argues that the court employed an
unreliable methodology to compute Ericsson’s “proportional
share” of the maximum aggregate royalty of all SEPs in each
standard because it used wildly divergent approaches to calculate
the numerator and denominator, resulting in under-compensation
to Ericsson. Third, Ericsson argues that the court’s treatment of
comparable licenses was fundamentally flawed because, among
other reasons, it rejected dollar-per-unit royalty rates as per se
discriminatory without pointing to any legal authority.
8

As Ericsson confirmed during oral argument, we need not
reach any of its arguments challenging the district court’s FRAND
analysis if we conclude that the district court violated Ericsson’s
right to a jury trial. See Oral Arg. at 16:56–17:46. In light of our
disposition vacating the district court’s FRAND analysis and remanding for the jury to decide in the first instance, we do not address Ericsson’s other challenges to the district court’s opinion.
See, e.g., Honeywell Int’l Inc. v. Hamilton Sundstrand Corp., 370
F.3d 1131, 1144 (Fed. Cir. 2004) (vacating the infringement judgment and not addressing the challenges to the district court’s rulings limiting damages).

19a
The Seventh Amendment provides that, “[i]n Suits
at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved … .” U.S. CONST. amend. VII. The Supreme Court has interpreted “Suits at common law” to
refer to actions that are “analogous” to 18th-century
suits brought in the English courts of law prior to the
Amendment’s adoption. Tull v. United States, 481 U.S.
412, 417 (1987). This preserved right extends not only
to common-law forms of action, but also to causes of action created by congressional enactment. Id.
“To determine whether a particular action will resolve legal rights, we examine both the nature of the
issues involved and the remedy sought.” Chauffeurs v.
Terry, 494 U.S. 558, 565 (1990). “First, we compare the
statutory action to 18th-century actions brought in the
courts of England prior to the merger of the courts of
law and equity. Second, we examine the remedy
sought and determine whether it is legal or equitable in
nature.” Tull, 481 U.S. at 417–18 (internal citations
omitted). “The second inquiry is the more important in
[this] analysis.” Chauffeurs, 494 U.S. at 565.
In cases that have “legal and equitable claims,” and
issues common to both, the court must conduct a jury
trial on “any legal issues for which a trial by jury is
timely and properly demanded.” Dairy Queen, 369
U.S. at 472–73. Just as the right to a jury trial on legal
claims cannot be denied directly by refusing a jury-trial
demand, the right “must not be infringed” indirectly
“by trying the legal issues as incidental to the equitable
ones or by a court trial of a common issue.” Ross v.
Bernhard, 396 U.S. 531, 537–38 (1970). The “right to a
jury trial of legal issues” cannot be “lost through prior
determination of equitable claims.” Beacon Theatres,
Inc. v. Westover, 359 U.S. 500, 511 (1959).

20a
In deciding to proceed with a bench trial on all remaining issues in this case, the district court concluded
that a jury trial was not necessary because it “ruled
that TCL’s remaining claims were equitable.” J.A. 34–
35. On appeal, Ericsson argues that it was deprived of
its Seventh Amendment right because the court conducted a bench trial to adjudicate the release payment
term, which is legal relief. We agree.
1.

The release payment provides legal relief.

The parties dispute whether the relief provided by
the release payment is legal or equitable. Ericsson focuses on the substance of the relief, arguing that the
release payment is legal because it is compensation for
TCL’s past patent infringement of Ericsson’s SEPs.
Appellants’ Br. at 35–37. TCL, on the other hand, argues that the release payment is equitable based on the
form the relief takes. As a term included in an injunction order, TCL argues that the release payment constitutes specific performance for a term in a contract.
Appellees’ Br. at 19. TCL also separately argues that
the release payment is equitable because it was ordered as restitution for TCL’s past unlicensed sales.
Id. at 26–27. According to TCL, the release payment
was a “way to retroactively restore to Ericsson that
which it would have already received if the FRAND
terms and conditions had previously been set, and a license not delayed.” Id. at 27.
That the release payment was ordered in the form
of an injunction does not necessarily make it equitable.
See, e.g., Great-West Life & Annuity Ins. Co. v. Knudson, 534 U.S. 204, 208, 214 (2002) (holding an injunction
ordering money funds to be legal relief because it
sought to “impo[se] personal liability for the benefits
that they conferred upon respondents”). Nor is the

21a
monetary nature of the release payment dispositive of
legal relief. See, e.g., Bowen v. Massachusetts, 487 U.S.
879, 893 (1988) (holding that monetary relief was equitable because it sought reimbursement to which the
State was allegedly already entitled, rather than money
in compensation for losses suffered); Paice LLC v.
Toyota Motor Corp., 504 F.3d 1293, 1315–16 (Fed. Cir.
2007) (holding that the court did not violate patent
owner’s right to a jury trial by calculating an “ongoing
royalty rate” for patent infringement in a bench trial).
Indeed, not all payments of money constitute legal
“damages.” Paice, 504 F.3d at 1316. And even if the
monetary relief can be characterized as restitution, as
TCL advocates here, that does not end the inquiry, because restitution can be either legal or equitable.
Great-West Life, 534 U.S. at 212 (“In the days of the divided bench, restitution was available in certain cases
at law, and in certain others in equity.”). To determine
which type of common law restitution the release payment is more analogous to, we focus on “the basis of
[Ericsson’s] claim” and “the nature of the underlying
remedies sought.” See id. at 213.
We agree with Ericsson that the release payment
term is legal in nature and thus entitled to a jury trial
determination. Ericsson’s offers to TCL refer to the
release payment term as “release payment for past unlicensed sales,” but the court consistently treated this
payment as retrospective compensation for TCL’s past
patent infringement. It is a “well-settled principle that
jury trials are available for damages for patent infringement.” 9 C. WRIGHT & A. MILLER, FEDERAL
PRACTICE AND PROCEDURE § 2312 (3d ed. 2018); see
also Markman v. Westview Instruments, Inc., 517 U.S.
370, 377 (1996) (analogizing “today’s patent infringe-

22a
ment action” to “the infringement actions tried at law
in the 18th century,” which “must be tried to a jury”).
For example, in its bench trial decision, the court
defined the function of the release payment as compensation, explaining that both of Ericsson’s offers “specify
a release payment intended to compensate Ericsson for
TCL’s unlicensed use of Ericsson’s SEPs … .” J.A. 33
(emphasis added). In its March 9, 2018 Amended Final
Judgment and Injunction, which was subject to both
parties’ review, the court elaborated that the compensatory relief was for past patent infringement. It ordered: “Upon the receipt by Ericsson of the release
payments set forth in Clause E by TCL, Ericsson shall
release TCL … from claims for past patent infringement … .” J.A. 14 (emphasis added). Most tellingly,
the court dismissed Ericsson’s counterclaims of patent
infringement as moot in light of the release payment.
J.A. 23. Thus, the court’s own actions confirm that the
release payment functions as a substitute for patent
infringement damages.9
TCL’s attempt to recharacterize the release payment as restitution for “TCL’s past unlicensed sales” is
unavailing because it improperly focuses on the form of
the relief, rather than its underlying substance. As the
Supreme Court has explained, “for restitution to lie in
9

In dismissing Ericsson’s patent infringement claims and
TCL’s related counterclaims of invalidity and non-infringement,
the court explained that they were “moot in light of the equitable
relief granted in the release payment.” J.A. 24 (emphasis added).
The court’s label of “equitable relief” does not impact our conclusion that the release payment is in substance compensation for
past patent infringement for the reasons discussed in this opinion,
especially since the court itself characterized the release payment
as releasing TCL from “claims for past infringement” in the same
order. J.A. 14.

23a
equity, the action generally must seek not to impose
personal liability on the defendant, but to restore to the
plaintiff particular funds or property in the defendant’s
possession.” Great-West Life, 534 U.S. at 214. In contrast, if the basis of the release payment is to provide a
“substitute” remedy for “benefits” conferred to TCL,
then the claim is legal. See Bowen, 487 U.S. at 895
(“Damages are given to the plaintiff to substitute for a
suffered loss, whereas specific remedies ‘are not substitute remedies at all, but attempt to give the plaintiff
the very thing to which he was entitled.’”) (internal citations omitted); see also Great-West Life, 534 U.S. at
214 (“The basis for petitioners’ claim is … that petitioners are contractually entitled to some funds for benefits
that they conferred. The kind of restitution that petitioners seek, therefore, is not equitable … but legal—
the imposition of personal liability for the benefits that
they conferred upon respondents.”).
Here, the “basis” of the release payment is not that
TCL holds “particular funds” that a court could then
restore to the possession of its “true owner,” Ericsson.
See Great-West Life, 534 U.S. at 213–14. Nor is it a “reimbursement” of funds to which Ericsson was already
entitled, akin to the equitable relief in Bowen. See 487
U.S. at 895. Rather, as payment for “TCL’s past unlicensed sales,” the release payment seeks to estimate
the benefits conferred to TCL from selling products
that practiced Ericsson’s SEPs without a license. See
Great-West Life, 534 U.S. at 214. And given that TCL
does not dispute infringement of Ericsson’s SEPs,10 it is
hard to see how a payment for TCL’s past unlicensed
10

Indeed, TCL alleged that its products “complied” with the
2G, 3G, and 4G standards, J.A. 444 ¶ 3, and conceded that Ericsson’s SEP families were “essential” to those standards. J.A. 63.

24a
sales is in substance materially different from damages
for past patent infringement.
At bottom, regardless of whether we characterize
the release payment term as compensation for “past
patent infringement” or restitution for “TCL’s past unlicensed sales,” the underlying nature of the relief is
legal. Accordingly, we conclude that Ericsson was entitled to a jury trial on the determination of the release
payment amount under the Seventh Amendment.
2.

Ericsson did not waive its right to a jury trial
on the release payment term.

TCL suggests that Ericsson waived its right to a
jury trial by consenting to a bench trial on the release
payment term. Appellees’ Br. at 16. In support, TCL
points to a single statement made by Ericsson in its
August 15, 2016 response to TCL’s ninth set of interrogatories. Id. Therein, Ericsson stated: “The release
payment that TCL owes Ericsson for its past unlicensed sales of 2G, 3G, and 4G devices will be determined by the Court at the conclusion of this litigation.”
J.A. 38867.
When read in context of the record as a whole, we
decline to interpret this isolated statement as a waiver
of Ericsson’s constitutional right, because the more
reasonable reading is to view this statement as conditioned upon an initial jury determination of whether
Ericsson’s offers were FRAND. See Aetna Ins. Co. v.
Kennedy, 301 U.S. 389, 393 (1937) (“[A]s the right of
jury trial is fundamental, courts indulge every reasonable presumption against waiver.”).
On January 20, 2015, the parties filed a joint report
agreeing to a two-stage adjudication process where: (1)
the jury would decide whether Ericsson’s offers were

25a
FRAND and (2) if not, the court would conform the offer terms to be compliant with FRAND. J.A. 1892. As
the joint report explained, the reason why the jury had
to decide the first issue was because that issue was the
“key factual dispute underlying all of” the legal (e.g.,
“money damages”) and equitable claims that were then
live in the case. Id. Because Dairy Queen requires
common issues to legal and equitable claims to be tried
to a jury first, the parties stipulated that this common
issue “must therefore be decided by a jury.” Id.
Admittedly, TCL’s claims and counterclaims seeking damages (e.g., infringement of its own patents,
breach of contract) had been dismissed by the time Ericsson filed its interrogatory response. Because the
parties’ original reason for requiring a jury determination no longer existed, TCL argues that the court
properly decided the case in a bench trial consistent
with the rationale underlying the stipulated plan. Appellees’ Br. at 17–18.
We are unpersuaded. Just because the originally
articulated basis for requiring a jury disappeared does
not mean that Ericsson waived its jury trial right resting on other bases. Indeed, on August 15, 2016, Ericsson filed a “court-requested submission regarding remaining claims and requirement of a jury trial,” Ericsson explicitly identified the “release payment” term as
an alternative basis for a jury trial:
[T]he nature of the remedy sought by the parties—a binding payment obligation that requires TCL to pay royalties to Ericsson on a
going forward basis and to make a release
payment of money for its past patent infringement—entitles Ericsson to a jury on all
asserted claims … . The nature of this binding

26a
payment obligation, i.e., the payment of money
as compensation to Ericsson for past and future infringement by TCL, is decidedly legal.
But even if the remedy was a mix of equitable
and legal remedies, the legal remedies sought
confer a jury trial right.
J.A. 38827–33 (emphases added). Notably, this submission was filed on the same day Ericsson filed its interrogatory response upon which TCL relies on as a waiver.
Even the court did not treat Ericsson as having
waived its jury trial right. In a January 30, 2017 final
pre-trial conference order, the court explicitly acknowledged that “Ericsson has requested a jury trial of all
issues” and that it “overruled Ericsson’s request for a
jury trial of all issues, which request Ericsson hereby
preserves.” J.A. 48694 (internal citation omitted). Ericsson renewed its objection to the bench trial right before it commenced:
Your Honor, just an administrative point. Ericsson just wants to make a non-waiver point.
Of course, we’re proceeding with the bench trial. We don’t want to be deemed to have made
an election or to have waived our right to a jury
trial as reflected in our earlier motion which
was denied.
J.A. 51642. In light of the record as a whole, we reject
TCL’s contention that Ericsson waived its jury trial
right.
CONCLUSION
For the foregoing reasons, we hold that the district
court deprived Ericsson of its Seventh Amendment
right to a jury trial by deciding the legal relief of a re-

27a
lease payment for past unlicensed sales in a bench trial.
We have considered the parties’ remaining arguments
and find them unpersuasive.
Accordingly, we vacate the district court’s determination of the release payment, including the underlying question of whether Ericsson’s Option A and Option
B offers that include the release payment term are
FRAND. We also vacate the court’s determination
that Ericsson’s offers are not FRAND and its determination of prospective FRAND royalty rates because
both determinations were predicated on common issues
to the improperly decided release payment. Because
the release payment will be redecided by the jury, we
reverse the dismissal of Ericsson’s patent infringement
claims and TCL’s related counterclaims of invalidity
and non-infringement as no longer moot. Finally, we
remand all above determinations for further proceedings consistent with this opinion.
VACATED-IN-PART, REVERSED-IN-PART, AND
REMANDED

29a
APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 8:14-CV-00341 JVS-DFMx
Case No. 2:15-CV-02370 JVS-DFMx
TCL COMMUNICATION TECHNOLOGY
HOLDINGS, LTD., ET AL.,
Plaintiffs/Counterclaim-Defendants,
v.
TELEFONAKTIEBOLAGET LM
ERICSSON, ET AL.,
Defendants/Counterclaim-Plaintiffs.
v.
ERICSSON INC., ET AL.,
Plaintiffs/Counterclaim-Defendants,
v.
TCL COMMUNICATION TECHNOLOGY
HOLDINGS, LTD., ET AL.,
Defendants/Counterclaim-Plaintiffs.
Filed March 9, 2018
Hon. James V. Selna
AMENDED FINAL JUDGMENT AND INJUNCTION

In this consolidated action, Plaintiffs and Counterclaim Defendants TCL Communication Technology

30a
Holdings Ltd., TCT Mobile (US) Inc., and TCT Mobile
Limited (collectively, “TCL”) brought claims and counterclaims against Defendants and Counterclaim Plaintiffs Telefonaktiebolaget LM Ericsson and Ericsson
Inc. (together, “Ericsson”) for breach of contract; promissory estoppel; declaratory judgment; fraudulent misrepresentation; negligent misrepresentation; and violation of the California Unfair Competition Law (the
“UCL”); declaratory judgment of non-infringement of
U.S. Patent No. 6,301,556 (the “’556 patent”); declaratory judgment of invalidity of the ’556 patent; declaratory
judgment of noninfringement of U.S. Patent No.
6,473,506 (the “’506 patent”); declaratory judgment of
invalidity of the ’506 patent; infringement of U.S. Patent No. 7,778,340 (the “’340 patent”); and infringement
of U.S. Patent No. 7,359,718 (the “’718 patent”).
Ericsson brought claims and counterclaims against
TCL for breach of the obligation to negotiate in good
faith and promissory estoppel, and claims for infringement of the ’556 patent; infringement of the ’506 patent;
declaratory judgment; declaratory judgment for noninfringement of the ’340 patent; declaratory judgment
of invalidity of the ’340 patent; declaratory judgment of
non-infringement of the ’718 patent; and declaratory
judgment of invalidity of the ’718 patent.
On July 1, 2015, the Court stayed the parties’
claims and counterclaims relating to Ericsson’s ’556 and
’506 patents until further Order of the Court (Dkt. 281).
On July 24, 2015, the Court dismissed the parties’
claims and counterclaims relating to TCL’s ’340 and
’718 patents without prejudice (Dkt. 289).
On June 17, 2016, the Court dismissed TCL’s claims
and counterclaims for fraudulent misrepresentation and
negligent misrepresentation with prejudice (Dkt. 838).

31a
On June 17, 2016, the Court dismissed Ericsson’s
counterclaims for breach of the obligation to negotiate
in good faith and promissory estoppel with prejudice
(Dkt. 838).
On August 9, 2016, the Court granted Ericsson’s
motion for partial summary judgment of no damages
for breach of contract, promissory estoppel, or violation
of the UCL (Dkt. 1061), and Ericsson’s motion for partial summary judgment as to TCL’s claim for violation
of the UCL (Dkt. 1058).
The Court conducted a 10-day bench trial commencing
on
February
14,
2017.
Three
claims/counterclaims were tried before the Court: (1)
TCL’s claim/counterclaim for breach of contract seeking specific performance; (2) TCL’s claim/counterclaim
for declaratory judgment; and (3) Ericsson’s
claim/counterclaim for declaratory judgment (Dkt.
1376-1). The Court received evidence in the form of
exhibits, designated portions of deposition transcripts,
and witness testimony.
In its Memorandum of Findings of Fact and Conclusions of Law issued on November 8, 2017 (Dkt.
1778), the Court found that Ericsson’s Option A and B
offers were not fair and reasonable, and were discriminatory, and thereafter determined FRAND royalty
rates for a license to TCL under Ericsson’s 2G, 3G, and
4G standard essential patent portfolios.
Consistent with the Court’s Memorandum of Findings of Fact and Conclusions of Law (Dkt. 1778), and
based on the record established in this case, the Court
enters this Final Judgment and Injunction pursuant to
Federal Rule of Civil Procedure 58.

32a
DEFINITIONS
For the purpose of this Final Judgment and Injunction, the following definitions shall apply:
1.

“Affiliate” of a Party means a company or other legal entity which is controlled by the Party. For the
purpose of this definition, “control” shall mean direct or indirect ownership of more than fifty percent (50%) of the voting power, capital, or other securities of the controlled or commonly controlled
entity.

2.

“Brand Company” means a company or other legal
entity, other than a Network Operator, which is active in the consumer electronics business and/or
wireless communications business and/or IT industry.

3.

“Components” means any item of equipment, including, for example, a subsystem, sub-assembly or
component, in software, hardware, and/or firmware
form, of any TCL Product, which is sold, licensed,
or supplied, or intended to be sold, licensed, or supplied, to a Third Party other than as a complete and
ready to use end-use item, for example, because it
requires additional industrial, manufacturing, or
assembly processes before being used or sold as an
end-use item, and is intended for incorporation into
any product. Examples of Components include, but
are by no means limited to, platforms, ASICs and
chipsets, modules, printed circuit boards, integrated circuits, semiconductor devices, processors, multi-core processors, multi-chip modules, and multichip packages, embedded modules and core engines. This definition of “Components” shall exclude any product employed for the purpose of re-

33a
pair or upgrade of already sold products which are
licensed under this Injunction.
4.

“Consumer” means a natural person who buys
products as a final user.

5.

“Costs of Insurance and Transportation” means
TCL’s, as the case may be, actual direct costs of insurance and transportation to ship TCL Products
to its customers. For the avoidance of doubt, Costs
of Insurance and Transportation shall not include
any labor fee or any overhead costs of any kind.

6.

“Effective Date” means the date of entry of this
Final Judgment and Injunction.

7.

“End User Terminal” means a complete and ready
to use device or Knocked Down version of such
complete device with the largest of the width,
length, and depth of such complete device in its
most compact form being 250 mm or less, which can
be directly used by a Consumer for wireless communications (i.e. to receive and transmit information over the air by means of using one or more
of the Standards), without the device having to be
integrated or embedded into another device or
connected to another device through, for example,
a USB, PCMCIA, memory card, WLAN, or Bluetooth interface. For the avoidance of all doubt, the
term “End User Terminal” does not mean subassemblies or parts of products such as, but not limited to, Components, other than as sold as part of
the End User Terminal or as spare parts or repair
parts of already Sold End User Terminals. For the
further avoidance of doubt, TCL is not required to
pay any royalty to Ericsson for such spare parts or
repair parts of already Sold End User Terminals.

34a
8.

“Entity” means any individual, firm, company, corporation, or other corporate or legal entity (wherever and however incorporated or established),
government, state, agency or agency of a state, local or municipal authority or government body or
any joint venture, association or partnership
(whether or not having a separate legal personality).

9.

“Ericsson” means Defendants and Counterclaim
Plaintiffs Telefonaktiebolaget LM Ericsson, a company established under the laws of Sweden, with
organization number 556016-0680, with its registered office at SE-164 83 Stockholm, Sweden; Ericsson Inc., a Delaware corporation headquartered
at 6300 Legacy Drive, Plano, Texas 75024; and all of
their Affiliates.

10. “External Modem” means a separate external Consumer device which can be connected to or inserted
into an external slot of another device by an individual consumer (i.e. not an entity of any kind)
through, for example, a USB, PCMCIA, memory
card, WiFi, or Bluetooth interface, in order to allow
said another device to communicate by means of
any or more of the Standards. The External Modem may not be designed for the purpose of being
embedded into such other device or may not in itself include an immediate physical user-interface to
an individual Consumer to transmit or receive
wireless data and/or voice transmissions by means
of any or more of the Standards (such a device shall
fall under the definition of End User Terminal).
The term “External Modem” does not include
Components (other than as sold incorporated into
the External Modem or sold as part of a kit of External Modem) or modules.

35a
11. “Future Standards” means the agreed protocols by
ETSI, ARIS, T1P1, CCSA, and/or other relevant
telecommunications standards setting bodies that
are applicable to UMB, WiMax IEEE802.16m,
and/or any other beyond 4G standards, irrespective
of the transmission medium or frequency band, as
well as any updates in respect of such protocols.
12. “Have Made” means the right to have a Third Party make a product for the use and benefit of the
party exercising the have made right provided all
of the following conditions are fulfilled: (a) the party exercising the have made right owns and supplies the designs, specifications and working drawings supplied to such Third Party; and (b) such designs, specifications and working drawings are,
complete and sufficient so that no substantial additional design, specification and working drawings
are needed by any Third Party; and (c) such Third
Party is not allowed to sell such product to other
third parties.
13. “Injunction” means the Injunction herein and its
appendices.
14. “Knocked Down” means a complete End User
Terminal product in the form of complete knocked
down or semi-knocked down kits of parts, including
complete and substantially complete kits of parts,
where such kit of part or knocked down product is
always a complete and ready to use End User
Terminal.
15. “License Period” means the period commencing on
the Effective Date and having a period of five (5)
years calculated from the Effective Date.

36a
16. “Licensed Patents” means those Patents (in any
country of the world) as to which it is, or is claimed
by the owner to be, not possible, on technical
grounds taking into account normal technical practice and the state of the art generally available at
the time of adoption or publication of the relevant
Standards, to make, sell, lease, or otherwise dispose of, repair, use, or operate equipment or methods which comply with the relevant Standards,
without infringing such Patents.
17. “Network Operator” means an Entity, including
such Entity’s Affiliates, that as its main business
(a) owns or licenses frequency spectrum, directly or
indirectly, from a government or other relevant authority or Entity, and offers wireless data- or telecommunications services to Consumers over such
owned or licensed spectrum; and/or (b) offers wired
data- or telecommunications services to Consumers.
18. “Net Selling Price” means the greater of (a) the
selling price actually obtained for the TCL Product
in the form in which it is Sold, and (b) the selling
price which a seller would realize from an unAffiliated buyer in an arm’s length sale of an equivalent product in the same quantity and at the same
time and place as such Sale, whether or not assembled and without excluding therefrom any components or subassemblies thereof. In determining the
“Net Selling Price,” only the following shall be excluded to the extent actually included in the selling
price obtained for such products: (i) Usual Trade
Discounts actually allowed to non-Affiliated persons or entities; (ii) Packing Costs; (iii) Costs of Insurance and Transportation; and (iv) Taxes and
Custom Duties. For the avoidance of doubt, al-

37a
lowed deductions for Usual Trade Discounts, Packaging Costs, and Costs of Insurance and Transportation shall in total not exceed eight (8) percent
units of the selling price.
19. “Packing Costs” means TCL’s, as the case may be,
actual direct costs of packing and/or packaging
TCL Products for shipment to its customer. For
the avoidance of doubt, Packing Costs shall include
extra batteries, charger, ear phones, SO card, user
manual (in any form including but not limited to
CD-ROM), warranty card, USB cable, welcome kit,
packing box, labels, protective screen cover, plastic
bags, carrying kit and separate additional phone
cover case. For the avoidance of doubt, Packing
Costs shall not include any labor fee or any overhead costs of any kind.
20. “Party/Parties” means Ericsson and TCL.
21. “Patents” means patent claims (including claims of
licensable patent applications), and like statutory
rights other than design patents, owned, or controlled by Ericsson at any time during the License
Period.
22. “Personal Computer” means a complete and ready
to use device, designed mainly for data processing
by means of a physical or virtual keyboard, with
the largest of the width, length, and depth of such
complete device in its most compact form being
more than 250 mm, which can be directly used by a
Consumer for wireless communications (i.e. to receive and transmit information over the air by
means of using any or more of the Standards),
without the device having to be integrated or embedded into another device or connected to another
device through for example a USB, memory card,

38a
WLAN, or Bluetooth interface. For the avoidance
of all doubts, the term “Personal Computer” does
not mean subassemblies or parts or products such
as, but not limited to Intermediate Products, other
than as sold as part of the Personal Computer or as
spare parts or repair parts of already Sold Personal
Computers.
23. “Retailer” means an Entity, including such Entity’s
Affiliates, other than a Brand Company, a licensee
of Ericsson, or a Network Operator, which is having as its main business to sell Third Party branded
products to Consumers whether through shops or
online.
24. “Sale,” “Sell,” “Sold,” or any similar term, mean the
delivery of TCL Products in any country of the
world to a Third Party regardless of the basis for
compensation, if any, including lease, rent or similar transaction, whether as an individual item or as
a component or constituent of other products, or
the putting into use of the TCL Products by TCL
for any purpose other than routine testing thereof—with a Sale being deemed to have occurred upon shipment or invoicing or such putting into use,
whichever shall first occur. TCL Products that are
returned for refund (for avoidance of doubt to exclude warranty returns), may be netted against
units Sold, so long as a returned unit that is subsequently resold is counted as a new Sale.
25. “Standards” means the ETSI (or, if applicable, its
equivalent internationally recognized body or organization) cellular telecommunication standards
2G, 3G and 4G. For the avoidance of any doubt,
Standards does not include WiFi, WiMax, CDMA,
or Future Standards.

39a
26. “Taxes and Custom Duties” means import, export,
excise, sales and value added taxes and custom duties levied or imposed directly upon the Sale of
TCL Products that TCL, as the case may be, remits
to the government body levying or imposing such
taxes or duties.
27. “TCL” means Plaintiffs and Counterclaim Defendants TCL Communication Technology Holdings
Ltd., a company established under the laws of
Cayman Islands, with its registered office at Cricket Square, Hutchins Drive, P.O. Box 2681, Grand
Cayman KY1-1111, Cayman Islands; TCT Mobile
(US) Inc., a Delaware corporation headquartered at
25 Edelman, Irvine, CA 92618; TCT Mobile Limited, a company established under the laws of Hong
Kong, having its registered office at Room 1502,
Tower 6, China Hong Kong City, 33 Canton Road,
Tsimshatsui, Kowloon, Hong Kong; and all of their
Affiliates.
28. “TCL Products” shall mean the End-User Terminals, External Modems, and Personal Computers
all being branded with (a) a brand owned by TCL,
Network Operators, or Retailers, provided that
such TCL Products are not also branded with a
brand owned by a Brand Company; (b) a brand licensed to TCL, Network Operators, or Retailer,
provided that such licensed brand is not owned by a
Brand Company; or (c) TCL shall have the option
to ask for permission from Ericsson to add End User Terminals branded with Third Party brands (not
being a Brand Company or a licensee of Ericsson)
to the definition of TCL Products on a case by case
basis. Such addition of End User Terminals branded with a Third Party brand (not being a Brand
Company or a licensee of Ericsson) is always sub-

40a
ject to Ericsson prior written approval. Such approval is at Ericsson’s sole discretion. Notwithstanding the above, TCL Products branded with a
brand licensed or transferred to it from Alcatel, Alcatel Lucent, or Blackberry Sold after such license
or transfer and are compliant with one or more of
the Standards shall be included in this definition of
TCL Products and subject to royalty payment in
accordance with this Injunction.
29. ‘‘Third Party/Third Parties” shall mean any Entity
that is not Ericsson or TCL.
30. “Usual Trade Discounts” shall mean discounts actually allowed by TCL, as the case may be, to unAffiliated persons or entities for TCL Products
Sold by TCL, as the case may be, to such person or
entity solely to the extent such discounts are
agreed upon in writing by TCL, as the case may be,
and such person or entity in a written supply (or related) agreement on, or prior to the time of Sale of
such TCL Product, including prompt-pay discounts,
volume discounts, price protection discounts, stock
balancing discounts, late delivery penalties, payments for promotional rebates provided by such
person or entity to its end user customers (the
“Trade Discount Deductions”). Notwithstanding
anything to the contrary above, the following shall
not be included in the Trade Discount Deductions:
discounts/payments agreed upon after the time of
Sale of a TCL Product and market development
and/or business development funds.
31. “2G” shall mean Global System for Mobile Communications (GSM) and Generalized Packet Radio System (GPRS), including the Enhanced GPRS
(EGPRS/EDGE) standard specifications released

41a
or published by 3GPP and/or relevant local standardization bodies such as ETSI, TIA, T1P1, ARIB,
TIC, and CCSA, irrespective of the transmission
medium or frequency band, at the time of the Effective Date and thereafter as well as updates in
respect of such standard specifications during the
License Period. For the avoidance of any doubt, 2G
does not include 3G or any Future Standards.
32. “3G” shall mean UTRA FDD mode, i.e. UMTS and
WCDMA, including HSPA standard specifications
released or published by 3GPP and/or relevant local standardization bodies such as ETSI, TIA,
T1P1, ARIS, TTC, and CCSA, irrespective of the
transmission medium or frequency band, at the
time of the Effective Date and thereafter, as well
as any updates in respect of such standard specifications during the License Period. For the avoidance of any doubt, 3G does not include 2G, CDMA,
WiMax, WiFi, or any Future Standards.
33. “4G” shall mean E-UTRA (FOO mode and TDD
mode (including but not limited to LTE or TDLTE)) standard specifications released or published by 3GPP and/or relevant local standardization bodies such as but not limited to ETSI, TIA,
T1P1, ARIB, TTC, and CCSA, irrespective of the
transmission medium or frequency band, at the
time of the Effective Date and thereafter, as well
as any updates in respect of such standard specifications during the License Period. However, such
updates may not extend to any Future Standards.
For the avoidance of any doubt, 4G does not include
2G, 3G, CDMA, WiMax , WiFi, or Future Standards.

42a
34. “WiFi” shall mean the 802.11 standard specifications released or published by IEEE irrespective
of the transmission medium, frequency band, or
duplexing scheme, at the lime of the Effective
Date, as well as any updates in respect of such
standard specifications during the License Period.
However, such updates may not extend to any Future Standards. For the avoidance of any doubt,
WiFi does not include 2G, 3G, 4G, CDMA, WiMax,
or Future Standards.
35. “WiMax” shall mean the 802.16 standard specifications released or published by IEEE, irrespective
of the transmission medium, frequency band or duplexing scheme, at the time of the Effective Date,
as well as any updates in respect of such standard
specifications during the License Period. However,
such updates may not extend to any Future Standards. For the avoidance of any doubt, WiMax does
not include 2G, 3G, 4G, CDMA, WiFi, or Future
Standards.
36. “CDMA” shall mean CDMA2000 standard specifications released or published by 3GPP2 and/or relevant local standardization bodies such as but not
limited to ETSI, TIA, T1P1, ARIB, TTC, and
CCSA, irrespective of the transmission medium,
frequency band or duplexing scheme, at the time of
the Effective Date, as well as any updates in respect of such standard specifications during the License Period. However, such updates may not extend to any Future Standards. For the avoidance
of any doubt, CDMA does not include 2G, 3G, 4G,
WiMax , WiFi, or Future Standards.

43a
INJUNCTION
IT IS FURTHER ORDERED THAT:
This Injunction is binding upon the Parties, their
officers, agents, servants, employees, and attorneys,
and upon those persons in active concert with them
who receive actual notice of the Injunction by personal
service or otherwise.
License Grant
License Grant. Subject to the terms and conditions
of this Injunction, TCL hereby is granted a world-wide,
non-transferable, and non-exclusive license under Ericsson’s Licensed Patents to make, Have Made, use,
import, Sell, and offer for Sale TCL Products. The license and rights granted to TCL granted by this Injunction shall expire at the end of the License Period.
The license granted to TCL further includes the right
to make, use, and import solely by TCL (but not to Sell,
lease, or otherwise dispose of to Third Parties) manufacturing and testing equipment compliant with the
Standards for the testing, developing, and manufacturing of TCL Products.
Sublicense. TCL shall grant sublicenses of the
rights set forth in this Clause to all future Affiliates of
TCL Selling TCL Products. TCL shall procure that
such future Affiliate shall be bound in all respects to all
of the obligations contained in this Injunction, including
but not limited to, the payment of royalties as set forth
in Clause E of this Injunction. TCL shall be liable for
the payment of royalties as set forth in Clause E attributed to all sublicensed future Affiliates, which shall
be effectuated by TCL Communication Technology
Holdings Ltd. directly. Any sublicense granted here-

44a
under shall terminate if the Affiliate ceases to be an Affiliate of TCL.
No Implied License. Nothing in this Injunction
shall be construed as a right to use or sell TCL Products in a manner which conveys or purports to convey
whether explicitly, by principles of implied license, or
otherwise, any rights to any Third Party user or purchaser of the TCL Products, under any patent of Ericsson covering or relating to any combination of the TCL
Products with any other product (not licensed hereunder) where the right applies specifically to the combination and not to the TCL Product itself.
No Rights to Provide Foundry Services. For the
avoidance of all doubt, nothing in this Injunction shall
mean that Ericsson is granting a license under any Licensed Patents to TCL for providing of foundry services to Third Parties, i.e. TCL manufacturing and selling products based upon Third Party made and owned
design when the product is thereafter sold to or directly on behalf of such same Third Party.
Limitations of License Grant
Jointly Owned Patents. With respect to Patents licensed herein which are owned jointly by Ericsson with
others, the Court recognizes that there are countries
which require the express consent of all inventors or
their assignees to the grant of licenses or rights under
patents issued in such countries for such jointly owned
inventions. Ericsson shall give such consent and shall
use all reasonable efforts to obtain such consent from
its employees, and from other Third Parties and future
Affiliates, as required to make full and effective any
such licenses and rights granted.

45a
If, in spite of such efforts, Ericsson is unable to obtain such consents from any such employees or Third
Parties, the resulting inability of Ericsson to make full
and effective its purported grant of such licenses and
rights shall not be considered to be a breach of this Injunction. For the avoidance of doubt, in such a case, the
licenses and rights shall be considered granted by Ericsson to the maximum extent possible, and, consequently, if TCL acquires a corresponding license from
the employee or Third Party, TCL shall be deemed licensed under the patent.
No Rights Against Infringers. There may be countries in which TCL may have, as a consequence of this
Injunction, rights against infringers of Ericsson’s Patents licensed hereunder. TCL shall not assert any
such right it may have by reason of any Third Party’s
infringement of any such Patents.
Release
Upon the receipt by Ericsson of the release payments set forth in Clause E by TCL, Ericsson shall release TCL and all customers of TCL who have purchased or used products herein licensed to TCL from
claims for past patent infringement, provided such act
would be licensed under this Injunction if it had occurred subsequent to the Effective Date.
Within thirty (30) days of final judgment (inclusive
of all appeals and posttrial proceedings) and provided
that Ericsson has received the release payment set
forth in this Injunction from TCL, the parties shall cooperate to promptly seek the dismissal (with prejudice
where available) of all claims and counterclaims in all
litigations covered by the Court’s anti-suit injunction
dated July 10, 2015, Dkt. 284.

46a
Know-How and Trade Secrets
No license or other right is granted herein to TCL,
directly or by implication, estoppels or otherwise, with
respect to any trade secrets or know-how, and no such
license or other right shall arise from the consummation of this Injunction or from any acts, statements or
dealings leading to such consummation. Except as specifically provided herein, Ericsson is not required by
this Injunction to furnish or disclose to TCL any technical or other information.
Payments, Reports, and Audit
Royalties. In consideration of the license granted
herein, TCL shall pay Ericsson:
1.

A release payment of $16,449, 071 for past unlicensed sales of End User Terminals compliant with
2G, 3G, and/or 4G for the period 2007 through 2015,
to be paid within thirty (30) days of the Effective
Date;

2.

A release payment for past unlicensed sales of End
User Terminals compliant with 2G, 3G, and/or 4G
for the period 2016 through 2017, to be reported
and paid in January and February 2018, as set forth
in the “Reports” and “Payment” section herein; and

3.

A running royalty for End User Terminals Sold
beginning January 1, 2018 according to the following schedule:
a.

For each such product Sold that is compliant with GSM, GPRS, or EDGE (but not
compliant with WCDMA, HSPA, and/or
4G), 0.164% of the Net Selling Price if sold
in the United States, 0.118% of the Net
Selling Price if sold in Europe, and 0.090%

47a
of the Net Selling Price if sold anywhere in
the world other than theUnited States or
Europe;
b. For each such product Sold that is compliant with WCDMA or HSPA (but not compliant with 4G), 0.300% of the Net Selling
Price if sold in the United States, 0.264% of
the Net Selling Price if sold in Europe, and
0.224% of the Net Selling Price if sold anywhere in the world other than the United
States or Europe;
c.

For each such product Sold that is compliant with 4G, 0.450% of the Net Selling
Price if sold in the United States, TCL’S
PROPOSED LANGUAGE: and 0.314% of
the Net Selling Price if sold anywhere in
the world other than the United States.

Should TCL purchase TCL End User Terminals
from a Third Party claiming to be licensed or to have
pass-through rights under Ericsson Licensed Patents
that confer a license covering the End User Terminal,
then TCL will receive credit for that pass through license in the royalty rates applied. In particular, with
regard to Ericsson Patents that are essential to the
WCDMA Standards (“Ericsson WCDMA Licensed Patents”) for the Selling of ASICs, then TCL may have
the option of remaining unlicensed by Ericsson under
such Ericsson WCDMA Licensed Patents subject to
Selling TCL End User Terminals with ASICs that are
compliant with the WCDMA Standard. TCL shall then
pay a royalty equal to the rate paid for the
GSM/GPRS/EDGE and/or LTE Standards as specified
in Clause E(3)(a) or Clause E(3)(c) of this Injunction, as
applicable, for each such TCL End User Terminal pro-

48a
vided that such TCL End User Terminal is also compliant with any of the GSM/GPRS/EDGE Standards
and/or LTE Standards while it is qualified as a WCDMA End User Terminal. For the avoidance of doubt,
the Parties acknowledge the doctrine of patent exhaustion. Ericsson confirms that upon the Effective Date it
has not provided any licenses with pass-through rights
under its 4G patent portfolio to a chipset provider,
making, using, importing, selling, or otherwise disposing of 4G compliant chipsets and components.
For the avoidance of doubt, TCL shall only be required to pay the highest prevailing royalty rate under
this Injunction for each End User Terminal. For example, the 3G royalty rate for 3G multimode End User
Terminal includes the royalty rate also for the 2G part
in such End User Terminal.
This Injunction does not require TCL to pay any
royalties for the Sale of any External Modems or Personal Computers that are compliant with 2G, 3G, and/or
4G during the release period (i.e., prior to January 1,
2018) or the License Period. TCL shall have a royaltyfree license for all such sales.
Reports. TCL Communication Technology Holdings Ltd. shall, on behalf of all TCL Parties, make written reports to Ericsson for each applicable six months
(January to June and July to December (each a “Reported Period”)). Such reports shall be provided to Ericsson no later than one (1) calendar month after the
first day of each January, and July for each year during
the License Period and as of such dates including the
last report after the License Period, stating in each
such report, the number, Net Selling Price, gross price
and other relevant information for each type of TCL
Product Sold or otherwise disposed of during the pre-

49a
ceding Reported Period, and on which royalty is payable as provided in this Clause E, and shall be at least as
detailed as specified in Appendix 1. In addition to the
written report, TCL Communication Technology Holdings Ltd. shall, on behalf of all TCL Parties and TCL
Affiliates, send such report in Excel-format (.xls format) to Ericsson via email to: ipr.unit@ericsson.com.
In the event that no royalty payment is due for a Reported Period, TCL shall so report.
Payment. TCL Communication Technology Holdings Ltd. shall, on behalf of all TCL Parties and Affiliates, pay to Ericsson the royalties specified in this Injunction no later than two calendar months after the
end of each Reported Period, i.e. no later than on February 28th and August 31st for TCL Products Sold during the preceding Reported Period. The payment to
Ericsson shall be made to the Ericsson fully owned Affiliate Ericsson AB by wire transfer to the Ericsson
bank account as specified in Appendix 2. Such payment
to Ericsson AB shall fulfill TCL’s payment obligations
under the Injunction.
Ericsson shall have the right to assign any rights of
Ericsson in relation to any receivables arising under
this Injunction to any financial institution or other
Third Party and may disclose confidential information
related to this Injunction for such purpose. If required,
the TCL shall provide acknowledgment over the assignment to the financial institution or other third party. For the avoidance of doubt, any such assignment
shall in no way affect the obligations of TCL to Ericsson under this Injunction.
Records and Audits. TCL Communication Technology Holdings Ltd., on behalf of TCL and all Affiliates, shall keep records showing the sales or other dis-

50a
position of products sold or otherwise disposed of in
sufficient detail to enable the royalties payable by TCL
to Ericsson to be determined, and further, on behalf of
TCL and all Affiliates, shall permit its books and records to be examined to the extent necessary to verify
that reports and payments are sufficiently made in accordance with the Injunction, such examination to be
made by an independent and professional auditor
agreed by the Parties, such appointment not to be unreasonably refused, withheld or delayed by TCL, and
without a contingency fee arrangement between the tobe-appointed auditor and Ericsson based on the outcome of the audit amount to be collected. This shall at
least include all books, records, and accounts as may
under internationally recognized accounting practices
contain information bearing upon the amount of royalties payable in accordance with this Injunction. If the
auditor confirms, based on e.g. the books, records, information and accounts which are provided by TCL to
the auditor in accordance with TCL’s obligations in this
Injunction, that TCL has underpaid, TCL shall pay
such deficiency amount within thirty days after receipt
of invoice from Ericsson. In the event there is an overpayment by TCL, Ericsson shall credit such overpayment, verified by the auditor, against future payments
by TCL to Ericsson. For the avoidance of doubt, an
audit shall be conducted no more than once every year
and only upon ten (10) days prior written notice to
TCL. The auditor shall use best efforts to conduct the
audit in a manner that limits its interference with
TCL’s normal business activities and/or operations.
The cost of such audit shall be borne by Ericsson,
unless such audit determines that TCL has underpaid
the royalties due hereunder by the lesser of (a) more
than five percent (5%) or (b) two hundred thousand

51a
U.S. Dollars ($200,000), in which case, TCL shall reimburse Ericsson for the reasonable cost of such audit.
TCL shall preserve and maintain all such books and
records required for audit for a period of five years after the calendar quarter for which the books and records apply.
The expiration of this Injunction shall not prejudice
the right of Ericsson to conduct a final audit of the records of TCL, provided such audit is initiated no later
than one (1) year from the expiration of the Injunction.
TCL Communication Technology Holdings Ltd., on
behalf of TCL and all Affiliates, shall, at the agreed
date for the auditor visit to the TCL premises, provide
the auditor with the books and records, as requested by
the auditor. The auditor shall have the right to analyze
and verify such books and records at TCL’s premises.
For the avoidance of all doubt, such relevant books,
records and accounts shall be treated as TCL confidential information (“TCL Audit Confidential Information”) and any TCL Audit Confidential Information
shall not be disclosed to Ericsson under any circumstances. Auditor shall use best efforts to observe the
rules of onsite audit field work when in TCL premises.
Conversion to U.S. Dollars. To the extent that the
Net Selling Price for TCL Products Sold is paid to TCL
other than in U.S. Dollars then TCL shall convert the
portion of the royalty payable to Ericsson from such
Net Selling Price into U.S. Dollars at the official exchange rate of the currency of the country from which
the Net Selling Price was paid, as quoted by the Financial Times for the last business day of the calendar
quarter in which such TCL Products were Sold. If the
transfer of or the conversion into U.S. Dollars is not
lawful or possible, the payment of such part of the roy-

52a
alties as is necessary shall be made by the deposit
thereof, in the currency of the country where the Sale
was made on which the royalty was based to the credit
and account of Ericsson or its nominee in any commercial bank or trust company of Ericsson’s choice located
in that country prompt notice of which shall be given by
TCL to Ericsson.
Late Payments. TCL shall pay interest on any
overdue payment required to be made pursuant to this
Injunction, commencing on the date such payment becomes due, at an annual rate of twelve percent (12%).
Taxes. All payments required by this Injunction
are exclusive of taxes, customs, or any other duties, and
TCL shall be responsible for the payment of all such
taxes, customs or other duties including, but not limited
to, all sales, use, rental receipt, personal property or
other taxes and their equivalents which may be levied
or assessed in connection with this Injunction (excluding only taxes based on Ericsson’s net income).
Hence, if in accordance with present or future laws,
Ericsson shall be obliged to pay, or TCL obliged to deduct from any payment to Ericsson, any amount with
respect to any taxes, customs or any other duties levied, for which Ericsson is responsible as stated above,
TCL shall increase the payment to Ericsson by an
amount to cover such payment by Ericsson or deduction by TCL.
Change of Control
In the event that more than 20% of TCL’s ownership changes by merger, acquisition, consolidation,
transfer, or otherwise, any party may seek to address
with the Court whether such change should impact the
rights and obligations set forth in this Injunction, or

53a
whether modification, termination, or clarification of
the Injunction is required regarding the parties’ obligations given such change.
Transfer of Licensed Patents
Ericsson shall not transfer or assign any of the Licensed Patents during the License Period unless such
assignment, including future assignments of any of the
Licensed Patents, is made subject to maintenance of
the licenses and rights as granted under this Injunction.
No Additional Limitations or Obligations
Nothing contained in this Injunction shall (i) limit
the rights which TCL has outside the scope of the license and rights granted hereunder, or restrict the
right of TCL to make, Have Made, use, lease, sell, or
otherwise dispose of any particular product or products
not licensed herein; (ii) obligate any Party to bring or
prosecute actions or suits against Third Parties for infringement; (iii) obligate any Party to furnish any manufacturing or technical information or assistance; (iv)
obligate any Party to file any patent application, or to
secure any patent or patent rights, or to maintain any
patent in force, or to provide copies of patent applications to the other Parties, or to disclose any inventions
described or claimed in such patent applications; (v)
confer any right to use, in advertising, publicity or otherwise, any name, trade name, trademark, or any contraction, abbreviation , or simulation thereof; (vi) obligate Ericsson to make any determination as to the applicability of any patent to any product of TCL; or (v)
require Ericsson to assume any responsibilities whatsoever with respect to the manufacture, sale, lease, use,
importation, or disposition of any product or part

54a
thereof, by TCL or any direct or indirect supplier or
vendee or other transferee of TCL.
Waiver
Neither this Injunction nor any provision hereof
may be waived without the prior written consent of the
Party against whom such waiver is asserted. No delay
or omission by either Party to exercise any right or
power shall impair any such right or power to be construed to be a waiver thereof. Consent by either Party
to, or waiver of, a breach by the other Party shall not
constitute consent to, waiver of, or excuse for any other
different or subsequent breach.
Assignment
Neither this Injunction nor any license or rights
hereunder, in whole or in part, shall be assignable or
otherwise transferable by either Party without the
written consent of the other Party. Any attempt to do
so in contravention of this Article shall be void and of
no force and effect.
Notice
All notices, requests, demands, consents, agreements, and other communications required or permitted to be given under this Injunction shall be in writing
and shall be: (a) delivered personally; (b) mailed to the
Party to whom notice is given, by first class mail, postage prepaid; or (c) sent by facsimile or electronically,
properly addressed with a confirmation copy to the
Party’s legal department (as appropriate) as follows:

55a
ERICSSON
Ericsson AB
Att: Chief Intellectual
Property Officer
Torshamnsgatan 23
SE-164 80 Stockholm,
Sweden
Facsimile No: + 46 10 719
11 12

TCL
TCL Telecommunication
Technology Holdings
Limited
Att: Chief Legal Counsel
5th Floor, Building 22E
22 Science Park East
Hong Kong Science Park
Shatin, New Territories
Hong Kong
Facsimile No: +852-31802800
Royalty reports in .xls format shall be emailed to:
ipr.unit@ericsson.com.
Unless otherwise specifically provided for in this
Injunction, such communications shall take effect upon
receipt by the addressee, provided such communications shall be deemed to have arrived upon the expiration of seven (7) days from the date of sending in the
case of registered or certified mail and on the day of receipt of the sender’s facsimile confirmation of the
transmission in the case of telefax.
The above addresses and contacts can be changed
by providing notice to the other Party in accordance
with this Clause.
Confidentiality
Except as may otherwise be required by law or as
reasonably necessary for performance of this Injunction, each Party shall keep any information, whether of
a commercial or technical nature including but not limited to any related reports, furnished by the other Party pursuant to this Injunction confidential. The confidentiality obligations hereunder shall, for ten (10)

56a
years, survive the expiration of this Injunction for any
reason.
Headings
All headings used in this Injunction are inserted for
convenience only and are not intended to affect the
meaning or interpretation of this Injunction or any
clause or provision herein.
RETENTION OF JURISDICTION
IT IS FURTHER ORDERED that this Court retains jurisdiction of this matter for purposes of construction, modification, and enforcement of this Final
Judgment and Injunction.
COSTS
The TCL Parties (TCL Communication Technology
Holdings, Ltd., TCT Mobile Limited, and TCT Mobile
(US) Inc.) are the prevailing parties, and shall recover
their costs.
The parties’ claims and counterclaims regarding
Ericsson’s ’556 and ’506 patents are hereby dismissed
without prejudice because they are moot in light of the
equitable relief granted in the release payment. Insofar as they are not addressed in this Final Judgment
and Injunction, all other requests for relief set forth in
the parties’ pleadings are hereby denied.
//
//
//
//
//

57a
Appendix 2 to this Amended Final Judgment and
Injunction contains only banking information and shall
remain under seal.
The Clerk is directed and ordered to enter this
judgment.

Dated: March 9, 2018

/s/ James V. Selma
HON. JAMES V. SELNA
UNITED STATES
DISTRICT JUDGE

58a
APPENDIX 1

Customer
Product
type
(e.g.
mobile
phone,
tablet
etc.)

Total
(US$)

MoUnits
del
Sold
name
and
number

Gross
Selling
Price
(US$)

Net
Selling
Price
(US$)

Roy
-alty
rate
(%)

Total
Royalty
amount
(US$)

